APPENDICES

APPENDIX A

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
________________________
No. 18-10080
________________________
D.C. Docket No. 2:16-cr-00323-SLB-JHE-1
UNITED STATES OF AMERICA,
Plaintiff -Appellee,
versus
WILLIE LEE COOKS,
a.k.a. Little Man,
Defendant-Appellant.
________________________
Appeal from the United States District Court
for the Northern District of Alabama
________________________
(April 3, 2019)
Before TJOFLAT, NEWSOM, and GILMAN,1 Circuit
Judges.

1

Honorable Ronald Lee Gilman, United States Circuit Judge for
the United States Court of Appeals for the Sixth Circuit, sitting by
designation.

2a
NEWSOM, Circuit Judge:
In the ordinary case, an arrest warrant doesn’t automatically authorize police to search the arrestee’s
residence—the home search requires its own warrant.
This isn’t the ordinary case.
The question here is whether police violated the
Fourth Amendment when they conducted a warrantless search of the crawlspace in Willie Lee Cooks’s
home following a four-hour standoff that the responding officers deemed a hostage situation and that culminated in Cooks’s arrest. Here’s the short version: Rather than submitting to arrest, Cooks barricaded himself in his house, thereby preventing at least two occupants from leaving. Shortly after the police arrived,
and as they were trying to coax Cooks out of the residence, they heard what sounded like a power drill being used inside. The officers were able to make contact
with one of the occupants, who told them that Cooks
was “doing something in a hole in the floor.” When the
standoff ended and the officers entered the house several hours later, they found the hole, which had been
covered by a piece of plywood that was screwed down
from the outside. They pried it up, found that it led to a
crawlspace, and discovered there an arsenal of firearms.
As in all Fourth Amendment cases, we must determine the reasonableness of the officers’ actions by
reference to what they knew at the time. Just as important here is what the officers didn’t know—
specifically, how many additional individuals might be
in the house. Although the government has presented
several theories to justify the search in light of the officers’ uncertainty, we need address only one here. We
hold that the warrantless search of Cooks’s crawlspace
was lawful under the exigent-circumstances doctrine,

3a
as the officers had probable cause to believe that the
hole might contain additional hostages.
I
A

The events underlying this case began when a
team of officers from the U.S. Marshals Service’s Gulf
Coast Regional Fugitive Task Force and Counter Gang
Unit sought to arrest Cooks at his home. Cooks, a
member of the “Bloods” street gang, was wanted for
second-degree assault by the Birmingham Police Department. The officers initially knocked on his door,
but when no one answered, they entered the house by
force. They left after a brief survey of the residence revealed that it was empty.
The team returned at around 10:30 a.m. the next
day. While surveilling Cooks’s home, the officers saw a
car leave the residence twice, and when it returned the
second time at about 12:30 p.m., they ordered the driver—Precious Clemens—to stop. Clemens apparently
had no interest in talking to them, as she ran inside
the house and locked the door. Although attempts to
communicate with Clemens through the door were unsuccessful, two of the home’s other occupants—Pamela
Price and Everstein Johnson—were more cooperative.
When Officer Crendal Deramus asked Price and Johnson to open the door, they told him that they couldn’t
because the door had been barricaded and locked from
the inside using a deadbolt for which they didn’t have a
key.
It was around that time that officers started hearing what they would later describe as “sounds similar
to a power drill” coming from inside the house. As best

4a
they could tell, the sounds came from “the immediate
area of the front door.” They couldn’t see inside,
though, because the residence had tinted windows
throughout. Shortly thereafter, Price was able to exit
the house briefly, and before going back inside she told
the officers that Cooks was armed. Concluding that
they were facing a potential hostage situation, the officers decided to call the Jefferson County SWAT team.
When the SWAT team arrived, a hostage negotiator
made contact with Price and another unknown occupant, both of whom reiterated that they wanted to
leave but couldn’t, and one of whom stated—without
further explanation—that Cooks was “doing something
in a hole in the floor” of the house.2 When the negotiations to open the barricaded front door failed, the
SWAT team deployed tear gas.
At 4:30 p.m.—roughly an hour later, and four
hours after the initial contact with Clemens—the
standoff came to an end. The SWAT team broke a window and extracted Price and Johnson from the house,
at which point Price reiterated that Cooks was “doing
something in the floor.” This time, though, she elaborated that Cooks had put multiple guns in a hole in the
floor. The barricade sealing the front door was removed, and the SWAT team swarmed the house and
took Cooks and Clemens into custody.
After arresting Cooks, the officers performed an initial 30-second sweep, followed by a three- to fiveminute secondary sweep. In the process, they found a
four-by-four-foot hole covered by plywood that, they
2

Presumably reflecting the chaos of the scene, the officers had
different recollections about who mentioned Cooks’s work on the
hole in the floor. Deramus thought that the second individual was
Johnson, a male. SWAT Sergeant Billy Watts, by contrast,
thought that he had spoken to “two different females.”

5a
later explained, had been “hastily” “nailed down with
screws.” According to Deramus, they hadn’t seen the
hole during the prior day’s entry. The officers used a
crow bar to remove the plywood covering and found
that it led to the home’s crawlspace. SWAT Deputy
Douglas Lawson—described as “one of the smaller
members of the SWAT team who was often called upon
to go into small spaces”—entered the hole. As he put
his hand down to brace himself, he felt a plastic tarp
move and, under it, saw the butt of a gun in plain view.
When Lawson shined his flashlight around the
crawlspace, he saw more guns sticking out from underneath the plastic.
Thirty minutes to an hour after the initial sweep—
and still without a search warrant—the officers called
Special Agent Steve Owens with the Alabama Law Enforcement Agency to the scene to inventory the guns
that they had discovered in the crawlspace. Owens
found several pistols and long guns both underneath
and protruding from the tarp, along with several pieces
of unopened luggage that officers later determined contained additional firearms. At this point, the officers
decided to seek, and thereafter obtained, a search warrant for Cooks’s home. All told, the officers seized nine
pistols and 22 long guns from the crawlspace.
B

The government later charged Cooks with two
counts of unlawful possession of a firearm under 18
U.S.C. § 922(g)(1). Because the officers initially searched the crawlspace without a warrant, Cooks moved to
suppress the guns, contending that even if the officers
could lawfully sweep part of the house, “pulling up
floor boards and crawling under the house . . . was

6a
overbroad for a protective sweep.” The government responded to Cooks’s protective-sweep arguments, and
further countered that the search was justified under
the exigent-circumstances doctrine because the officers
didn’t know “if anyone else was inside the residence or
inside the hole in the floor.” In the officers’ minds, the
government explained, the crawlspace could have contained individuals “injured from the effects of the tear
gas . . . [or] by actions of the defendant himself.”
The government’s exigent-circumstances theory
was thus largely predicated on the idea that the house
could have contained other individuals besides the four
known occupants—Cooks, Clemens, Johnson, and
Price.3 The officers candidly acknowledged that they
weren’t quite sure who might have remained. Lawson,
for instance, testified at the suppression hearing that
they entered the hole in order “to secure it and make
sure there wasn’t anybody hiding down there that
could harm us.” Slightly differently, Deramus said that
although he personally believed that all of the house’s
occupants had been accounted for, he couldn’t rule out
the possibility that either additional “bad guy[s]” or
“potential hostages” remained. For his part, SWAT
Sergeant Billy Watts explained that the officers “had
no idea how many were [in the house],” elaborating
that while they “believed there to be four people in the
house from the conversations” that they had with the
occupants, they “were still not sure at that point.”
The magistrate judge charged with deciding
Cooks’s suppression motion in the first instance rejected the government’s protective-sweep justification,
3

The government separately argued that Price’s statement “that
[Cooks] had placed guns in a hole in the floor . . . created another
exigent circumstance which the police could not ignore.”

7a
concluding that although a limited sweep of the house
was justified, it couldn’t lawfully extend to a search of
the crawlspace. Specifically, he emphasized that there
was “no evidence that any officer observed anything
about the . . . hole that would indicate that a dangerous
person was inside,” and that although the officers’
threat assessment was conceivable, “conceivability
does not suffice for reasonableness.” The fact that the
plywood was nailed down from the outside, the magistrate judge explained, undermined the case for opening
it as part of a protective sweep because any hypothetical assailant “would have been effectively locked in.”
Moreover, the magistrate questioned the extent of the
intrusion, as “the government offer[ed] neither authority nor argument for why prying up the nailed-down
plywood covering the hole suffices for a cursory visual
inspection,” as required of a protective sweep under
Maryland v. Buie, 494 U.S. 325 (1990).
Even so, the magistrate judge recommended that
the district court deny Cooks’s motion to suppress on
the ground that the officers’ search was lawful under
the exigent-circumstances doctrine. While for protective-sweep purposes it was “not reasonable for the officers to conclude the . . . hole contained a person ready
and able to launch on attack,” the magistrate determined that “a reasonable officer could have believed a
hostage could be underneath the plywood covering.”
That was so, the magistrate judge reasoned, because
the “officers already had a basis to conclude that people
had been kept inside the house against their will.” Under the exigent-circumstances doctrine, the magistrate
judge concluded, no warrant was necessary here because “a hostage should not have to wait for a warrant
to be freed.”
The district court adopted the magistrate judge’s
report and recommendation in full. Thereafter, Cooks

8a
pleaded guilty to both counts under § 922(g)(1) but reserved the right to challenge the denial of his motion to
suppress. This appeal followed.4
II

Let’s start with the basics. The Fourth Amendment
provides as follows:
The right of the people to be secure in their
persons, houses, papers, and effects, against
unreasonable searches and seizures, shall not
be violated, and no Warrants shall issue, but
upon probable cause, supported by Oath or affirmation, and particularly describing the place
to be searched, and the persons or things to be
seized.
U.S. Const. amend IV. Whether in light or in spite of
that language, Fourth Amendment cases have come to
be governed by the principle that warrantless searches
are presumptively unreasonable, “subject only to a few
specifically established and well-delineated exceptions.” Katz v. United States, 389 U.S. 347, 357 (1967).
Nowhere is this more true, and important, than in the
context of the search of a “home”—the “first among
equals” in Fourth Amendment land. See Florida v.
Jardines, 569 U.S. 1, 6 (2013). Given this privileged
4

Our review of the district court’s denial of Cooks’s motion to suppress involves mixed questions of law and fact. “[W]e review the
district court’s factual findings for clear error, and its application
of the law to the facts de novo.” United States v. Williams, 871
F.3d 1197, 1199 n.2 (11th Cir. 2017) (quotation marks omitted).
We “may consider any evidence that appears in the record” and
must construe the facts “in the light most favorable to the prevailing party”—here, the government. United States v. Smith, 741
F.3d 1211, 1218 (11th Cir. 2013).

9a
status, warrantless searches of homes “bear heightened scrutiny.” Kentucky v. King, 563 U.S. 452, 474
(2011) (citing Payton v. New York, 445 U.S. 573, 586
(1980)).
One of the “well-delineated exceptions” to the presumptive warrant requirement is undisputed here.
Cooks doesn’t deny that once the officers were in the
crawlspace the firearms were in plain view and, therefore, were seizable so long as the officers were lawfully
there. See Horton v. California, 496 U.S. 128, 136–37
(1990). Cooks does deny, though, that the officers were
lawfully in the crawlspace—arguing that they violated
the Fourth Amendment by prying open the crawlspace’s plywood hatch. If he’s right, the search of the
crawlspace—and the ensuing seizure of the firearms—
was invalid. See id. at 136 (“It is, of course, an essential
predicate to any valid warrantless seizure of incriminating evidence that the officer did not violate the
Fourth Amendment in arriving at the place from which
the evidence could be plainly viewed.”). Accordingly,
whether the officers were justified in searching the
crawlspace without a warrant is the sole and dispositive question before us.
A

On appeal, the government makes the same arguments that it made to the magistrate judge to justify
the crawlspace search—along with a few new ones.
First, the government reiterates that the crawlspace
might have contained additional captives, adding that
“Cooks—the person keeping [the hostages]—had been
doing something mysterious with the hole.” Second,
and for the first time on appeal, the government contends that Cooks could have placed a “confederate” in

10a
the hole “for the purpose of ensuring the confederate’s
escape, possibly with evidence, or for the purpose of destroying evidence.” Third, the government asserts—
also for the first time on appeal—that “Cooks might
have placed something dangerous under the floor, such
as an explosive device.” Finally, the government renews its position that the search of the crawlspace was
within the permissible scope of a lawful protective
sweep.
We needn’t reach the question whether the search
can be justified as a part of a protective sweep or based
on either of the government’s newly articulated theories. As explained below, we agree with the district
court that the search was justified under what has
come to be known as the “emergency-aid” aspect of the
exigent-circumstances doctrine.
B

The exigency umbrella “encompasses several common situations where resort to a magistrate for a
search warrant is not feasible or advisable, including:
danger of flight or escape, loss or destruction of evidence, risk of harm to the public or the police, mobility
of a vehicle, and hot pursuit.” United States v. Holloway, 290 F.3d 1331, 1334 (11th Cir. 2002). We are
principally concerned here with “risk of harm to the
public”—sometimes called the “emergency-aid” aspect
of the exigent-circumstances doctrine. See, e.g., King,
563 U.S. at 460.
In order to justify an exigent-circumstances search,
the government bears the burden of “demonstrat[ing]
both exigency and probable cause.” Holloway, 290 F.3d
1331 at 1337. In the emergency-aid context, “the probable cause element may be satisfied where officers rea-

11a
sonably believe a person is in danger.” Id. at 1338; see
also United States v. Timmann, 741 F.3d 1170, 1178
(11th Cir. 2013) (probable cause satisfied where officers reasonably believe that someone “is seriously injured or threatened with such injury, and is in need of
immediate aid” (quotation marks omitted)). Separately,
the government must also demonstrate that the resulting search was “‘strictly circumscribed’ by the nature of
the exigency that authorized it” and “limited to the areas where a person reasonably could be found.” Montanez v. Carvajal, 889 F.3d 1202, 1209 n.4 (11th Cir.
2018) (quoting Mincey v. Arizona, 437 U.S. 385, 393
(1978)).
The officers here, Cooks contends, “exceeded the
scope of a warrantless search” by “forcefully break[ing]
into spaces in [his] home”—namely, the hole and connected crawlspace—“without providing specific and articulable facts as to why they believed an individual
was in the space.” Br. of Appellant at 12. We will address, in turn, whether the search was justified and, if
so, whether it was appropriately circumscribed.
1

It’s clear that the hostage situation at Cooks’s residence—which is how the police perceived the situation—created an exigency of the sort that would justify
a warrantless search. See United States v. MancinasFlores, 588 F.3d 677, 687 (9th Cir. 2009) (collecting decisions that “have recognized that an ongoing hostage
situation presents exigent circumstances”). The real
question here is whether the exigency remained ongoing during the officers’ search of the crawlspace—in
particular, that they could have reasonably believed
that the hole could have contained someone who was

12a
“in danger,” Holloway, 290 F.3d at 1338, or “in need of
immediate aid,” Timmann, 741 F.3d at 1178.
To be fair, there are arrows pointing in both directions. Before the magistrate judge, for instance, the
government argued that Pamela Price had “informed
police that [Cooks] had placed guns in a hole in the
floor,” thereby “creat[ing an] exigent circumstance
which the police could not ignore.” But while Price’s
statement may provide some support for the government’s protective-sweep theory—which hinges on the
risk of a hidden assailant or other danger to police—it
arguably cuts against its emergency-aid position. If
Cooks really had additional hostages in the house, why
would he have stashed them in the vicinity of weapons? Doing so would seem to be counterproductive to
the aim of holding someone against his will.
But it’s not our role to armchair quarterback the officers’ decision, and other considerations strongly support the government’s emergency-aid argument. In assessing the reasonableness of officers’ actions, we cannot indulge “the 20/20 vision of hindsight,” but instead
must adopt the “perspective of a reasonable officer on
the scene”—which, here, entailed an armed standoff
with a gang-member fugitive that had evolved into a
hostage situation. Graham v. Connor, 490 U.S. 386,
396 (1989) (citing Terry v. Ohio, 392 U.S. 1, 20–22
(1968)). We can’t get caught up in facts that the officers
couldn’t have known at the time—namely that, as it
turned out, there weren’t any additional captives in
Cooks’s hole or crawlspace. Rather, we must be mindful that the police “must act quickly, based on hurried
and incomplete information.” Holloway, 290 F.3d at
1339. Put simply, the Fourth Amendment’s reasonableness requirement gives officers facing exigent circumstances ample “breathing space to do the best they

13a
could with the information they had.” Montanez, 889
F.3d at 1210.
Nowhere is this “breathing space” more crucial
than in situations where life and limb may be in jeopardy. The “most urgent” of exigent circumstances, we
have said, is “the need to protect or preserve life in an
emergency situation.” Timmann, 741 F.3d at 1178. In
the same way, we have emphasized that “[i]t is difficult
to imagine a scenario in which immediate police action
is more justified than when a human life hangs in the
balance.” Holloway, 290 F.3d at 1337. Accordingly,
where the exigencies demand it, “the sanctity of the
home . . . must give way to the sanctity of human life.”
Id. Of course, the officers must still have probable
cause—i.e., a “reasonabl[e] belie[f that] a person is in
danger,” id. at 1338—but if they do, they needn’t hesitate. As we stressed in Holloway—quoting then-Judge
Warren Burger—“[p]eople could well die in emergencies if police tried to act with the calm deliberation associated with the judicial process.” Id. at 1340 (quoting
Wayne v. United States, 318 F.2d 205, 212 (D.C. Cir.
1963)). Accordingly, officers “must be given the authority and flexibility to act quickly, based on limited information, when human life is at stake.” Id. at 1339–
40.
Given the weight that our precedent places on the
need to protect human life, was it reasonable for the officers here to believe that Cooks’s hole might have contained additional hostages? We think it was. For starters, in adopting the magistrate judge’s R&R, the district court found that “the officers believed there were
four people in the house but were not sure whether
there were others.” Testimony at the suppression hearing amply supported that finding; several officers said
that they thought that the house might contain additional occupants—or, at the very least, couldn’t rule

14a
out that possibility. Watts, for instance, said that the
officers “had no idea” how many people were in the
house. Deramus, too, explained that the SWAT team
cleared the house to “make sure no one else was in
there, either [a] bad guy or any other potential hostages.”5 The Fourth Amendment’s reasonableness criterion gave the officers the “breathing space” they needed
to test their hypothesis, lest a possible injured innocent
be further imperiled by the delay inherent in securing
a search warrant.
Moreover, the drilling that the officers heard surely
heightened concerns. A reasonable officer, we think,
could rule out innocent explanations for the sounds—it
was exceedingly unlikely that Cooks was simply trying
to finish up a home-improvement project before the police whisked him away. That the drilling sounds started shortly after the police arrived, and seemed to come
5

Cooks emphasizes Deramus’s testimony that he personally believed—and that the task force officers “were still on the same understanding”—that the house contained only four people. Deramus was far less certain than Cooks suggests, however, as evidenced by this colloquy at the suppression hearing:
Question: At that point, when Ms. Price, Ms. Clemons, Mr.
Johnson, and the defendant were secured, did you know if
there was anybody else in the house?
Deramus: No, I did not.
Question: Could there have been additional people, hostages,
or people who wanted to hurt the police?
Deramus: Yes, sir.

In any event, the question is not whether Deramus or any other
particular officer subjectively believed that there were additional
hostages. Rather, we are limited to determining whether “the circumstances, viewed objectively, justify the [officers’] action[s].”
Brigham City v. Stuart, 547 U.S. 398, 404 (2006) (emphasis added
and quotation marks omitted).

15a
from behind a barricaded door, suggested two possibilities, neither good: Cooks was trying to hide either
something or someone that he didn’t want the police to
find. The officers couldn’t be sure which it was unless
and until they searched the hole, especially given that
the house’s tinted windows rendered it one big blind
spot.
Cooks responds that the “officers had not been informed,” and “did not hear or otherwise detect signs,”
that a “hostage was being kept in the crawlspace.” Br.
of Appellant at 14. The dissent agrees, emphasizing
that “the officers did not observe anything to indicate
that someone was in the crawlspace, let alone that
someone there was in immediate danger.” Dissenting
Op. at 26. But police don’t “need ironclad proof of a
likely serious, life-threatening injury to invoke the
emergency aid exception.” Michigan v. Fisher, 558 U.S.
45, 49 (2009) (quotation omitted). Given the length of
the standoff, the fact that Cooks already held two people against their will, the uncertainty about other occupants, and the bizarre drilling sounds, we think it
clear that the officers here acted within the zone of
reasonableness.6
6

The dissent takes issue with the fact that the officers didn’t
“call down into the crawlspace to inquire whether anyone was
there.” Dissenting Op. at 27. Their failure to do so, the dissent
says, suggests that the ‘“hostage in the crawlspace’ explanation
was an after-the-fact justification for the illegal search concocted
by the government.” Id. at 27–28. The Supreme Court has long
recognized, however, that speculation about the government’s true
motives has no place in the assessment of objective reasonableness. See, e.g., Whren v. United States, 517 U.S. 806, 812–13
(1996). Along the same lines, the Court has explained in the
emergency-aid context, in particular, that “even if the failure to
summon medical personnel conclusively established” that the officers did not believe that someone was injured, the test, as al-

16a
Indeed, searches under the emergency-aid exception have been upheld in circumstances that would
seem to be far less ominous than those here. In Fisher,
for example, officers arrived at a scene to find, among
other red flags, a truck “with its front smashed,” a
house with broken windows, and drops of blood in several places. 558 U.S. at 45–46. And though the officers
saw the defendant “screaming and throwing things” in
the house, they apparently couldn’t tell—from their
vantage point—if another person bore the brunt of his
anger. Id. at 46. The Supreme Court found the application of the emergency-aid exception to be “straightforward” because, among other reasons, “[it] would be objectively reasonable to believe that [the defendant’s]
projectiles might have a human target (perhaps a
spouse or a child).” Id. at 48.
Moreover, in Johnson v. City of Memphis, the Sixth
Circuit held that the “combination of a 911 hang-up
call, an unanswered return call, and an open door with
no response from within the residence”—without
more—sufficed to justify an exigent-circumstances
search. 617 F.3d 864, 869 (6th Cir. 2010). Notably, in
so holding, the court based its conclusion not only on
ready noted, “is not what [they] believed, but whether there was
an objectively reasonable basis for believing that medical assistance was needed, or persons were in danger.” Fisher, 558 U.S. at
49 (quotation omitted).
Moreover, and in any event, our task is not to opine—with the
benefit of hindsight—on the optimal path that the officers could
have taken, but rather to assess the reasonableness of the path
that they took. As the Supreme Court has said in another context,
a “creative judge engaged in post hoc evaluation of police conduct
can almost always imagine some alternative means by which the
objectives of the police might have been accomplished.” United
States v. Sharpe, 470 U.S. 675, 686–87 (1985). The dissent’s preferred “alternative means” of searching for hostages does nothing
to undermine the reasonableness of the officers’ actions here.

17a
“the information [that the officers] had,” but also—and
just as we do here—on “the importance in these situations of the information the responding officers d[id]
not have.” Id. at 871 & n.2. We break no new ground in
concluding that reasonable inferences based on both
knowns and known unknowns—rather than concrete
evidence of harm alone—can establish probable cause
to believe that an innocent is in danger and “in need of
immediate aid.” Timmann, 741 F.3d at 1178.
Our recent decision in Montanez v. Carvajal further reinforces our conclusion that the officers here
acted reasonably. The police in Montanez interrupted
what they thought was a residential burglary and detained two suspects outside the house. See 889 F.3d at
1205. Into an open door, an officer shouted, “Sheriff’s
office, come out if anybody’s in there,” but he got no response. Id. at 1206. Soon after discovering that the
door had been pried open, the officers entered the home
to search “for additional perpetrators and victims” and
found contraband in plain view. Id. Although the district court in that case found that the officers “had no
reason to believe anyone else was involved,” we emphasized that “a responding officer will rarely know (or
have any real way of knowing) whether he’s rounded
up everybody.” Id. at 1209. “[P]erhaps more importantly,” we further observed, “[t]here could be victims in
[the house] too, and in light of the violence that often
accompanies home invasions, it’s not unreasonable to
think that those victims might be incapacitated, unconscious, or otherwise in need of assistance.” Id. Accordingly, and “[g]iven the immediacy of a potential
victim’s needs,” we held that “the Fourth Amendment
permit[ted] a limited warrantless sweep of the home to
search for both perpetrators and potential victims.” Id.
That’s not to say that Montanez is on all fours. Inherent in a residential burglary is the risk that the

18a
homeowner will catch the perp in the act and wind up
a victim. Executing an arrest warrant doesn’t necessarily carry with it a corresponding risk—say, that the
arrestee will hold individuals against their will in a
hidden compartment. Even so, the same concerns regarding the uncertainty about potential victims and
the immediacy of their needs are equally (if not more)
pressing in the context of a four-hour hostage standoff.
Just as in a burglary gone wrong, Cooks’s hostages
could have been “incapacitated, unconscious, or otherwise in need of assistance.” Id. Here, as in Montanez,
swift action could have been the difference between life
and death for an injured innocent; accordingly, here, as
there, “[i]t would make no sense to compel an officer
. . . to quit the scene to procure a warrant, thereby
jeopardizing . . . the safety of potential victims inside
the house.”7 Id. at 1210.
2

Given that the officers had probable cause to believe that the crawlspace contained additional hostages, the final question is whether the search was propor7

To be clear, we are not sanctioning what Cooks calls a “general
crime scene exception.” Supp. Br. of Appellant at 3. The circumstances here are more dramatic than, and by no means representative of, the “general crime scene.” We think it fair to assume
that it will be the rare case in which the target of an arrest warrant barricades himself inside a house and holds other occupants
captive, and the even rarer case in which that individual sets
about to conceal a secret room with plywood and power tools. Given the uniqueness of the circumstances here—this was, after all, a
hostage situation—we think that the dissent overstates matters
when it suggests that our holding gives officers carte blanche “to
search any crawlspace, closet, shed, or other enclosed space not
covered by a lawful protective sweep.” Dissenting Op. at 30.

19a
tional to that exigency. Mincey, 437 U.S. at 393. Cooks
contends that it wasn’t; he says that the search—
specifically, the officers’ use of a crow bar to break open
the “locked” plywood “door”—was more intrusive than
necessary. Br. of Appellant at 12.
We disagree. Even the most intrusive of government actions may be warranted where the preservation
of human life is at stake. Cf. Fisher, 558 U.S. at 46
(upholding the entry of a house under the emergencyaid exception where “[t]he back door was locked, and a
couch had been placed to block the front door”). The
“immediacy of a potential victim’s needs,” Montanez,
889 F.3d at 1209, doesn’t become any less pressing
when she is behind a door locked from the outside. In
fact, the opposite would seem to be true—assuming she
is conscious, she can’t open the “door” to call for help.
Accordingly, the fact that the plywood plank here was
screwed down—while potentially undermining the case
for a protective sweep—strongly supports the government’s emergency-aid argument.
The ultimate question is whether the intrusion was
“strictly circumscribed” and “limited to the areas where
a person reasonably could be found.” Id. at 1209 n.4. It
was. The hole and crawlspace were big enough to stash
a person—a child or a small adult (as Lawson’s entry
indicates). The search, moreover, took no longer than
necessary to verify that the crawlspace was empty. We
therefore reject Cooks’s argument that the officers exceeded the scope of a lawful exigent-circumstances
search by prying open the plywood “door.”
III

For the foregoing reasons, we hold (1) that it was
reasonable to believe that Cooks’s crawlspace—which

20a
was covered by a makeshift plywood “door”—might
have contained hostages, and (2) that the officers were
therefore justified in removing the plywood cover and
briefly searching the crawlspace without a warrant.
Because we conclude that the search was lawful under
the emergency-aid aspect of the exigent-circumstances
doctrine, we needn’t reach the question whether the
search was justified under any other theory. Accordingly, we affirm the district court’s decision to deny
Cooks’s motion to suppress.
AFFIRMED.

21a

GILMAN, Circuit Judge, dissenting:
I respectfully disagree with the majority’s conclusion that the warrantless search of Willie Lee Cooks’s
covered crawlspace was lawful under the exigentcircumstances exception to the search-warrant requirement. Nothing in the record suggests that the officers who arrived at Cooks’s home to arrest him believed that Cooks was hiding hostages in the
crawlspace or, more importantly, that the situation
presented an objective reason to so believe. To the contrary, two officers explicitly testified at the suppression
hearing that they had no information whatsoever indicating that there were any people remaining inside
Cooks’s home, let alone inside of the covered
crawlspace, after they removed the four persons of
whom they were aware. The government’s after-thefact attempt to justify the officers’ search with varying
theories presented for the first time on appeal further
undermines its position.
Rather than focusing on what information was
available to the officers at the time of the warrantless
search at issue, the majority focuses on what the officers could not “rule out.” See, e.g., Maj. Op. at 15. This
court, however, has held that, in applying the exigentcircumstances exception, “speculation, without any factual support, will not suffice to overcome the warrant
requirement.” United States v. Lynch, 934 F.2d 1226,
1233 (11th Cir. 1991).
Law-enforcement officers might never be able to
positively “rule out” the potential of danger to the public when executing an arrest warrant in a residence.
But for the exigent-circumstances exception to apply
and render a warrantless search lawful, the “officers
must have an objectively reasonable belief that some-

22a
one inside is seriously injured or threatened with such
injury, and is in need of immediate aid.” United States
v. Timmann, 741 F.3d 1170, 1178 (11th Cir. 2013) (internal quotation marks omitted). The fact that Cooks’s
crawlspace “might have contained additional hostages,” see Maj. Op. at 15, did not give the officers authority to enter that enclosed space without a warrant in
the absence of any objective fact suggesting that a hostage was likely inside. I therefore respectfully dissent.
I.

Warrantless searches and seizures inside a person’s home are “presumptively unreasonable” under
the Fourth Amendment. Payton v. New York, 445 U.S.
573, 586 (1980). But there are certain exceptions to the
warrant requirement, with the government bearing the
heavy burden of proving that an exception applies and
that probable cause existed. United States v. Blasco,
702 F.2d 1315, 1325 (11th Cir. 1983) (“Because the protections of the [F]ourth [A]mendment are crucial to a
free and viable society, the government shoulders a
heavy burden of justifying the failure to obtain a warrant prior to the intrusion.”). One such exception to the
warrant requirement is the “exigent-circumstances exception,” which recognizes that a “warrantless entry by
criminal law enforcement officials may be legal when
there is compelling need for official action and no time
to secure a warrant.” Michigan v. Tyler, 436 U.S. 499,
509 (1978).
“The most urgent of these [exigent circumstances]
is the need to protect or preserve life in an emergency
situation.” Timmann, 741 F.3d at 1178 (internal quotation marks omitted). In order for the exception to apply, the officers must have probable cause to believe
that an exigent circumstance exists. United States v.

23a
Franklin, 694 F.3d 1, 7 (11th Cir. 2012). The standard
is an objective one, and the officers’ subjective motivations are irrelevant. Timmann, 741 F.3d at 1178.
Accordingly, various courts have found exigent circumstances to enter someone’s home or an enclosed
space within the home without a warrant in potential
hostage situations. But the officers in those cases have
had articulable, objective reasons to believe that hostages were likely present in the space being searched.
See, e.g., United States v. Ibarra-Zelaya, 465 F.3d 596,
605 (5th Cir. 2006) (holding that exigent circumstances
existed to search an apartment without a warrant
when officers received a tip that hostages were being
held there and the officers could hear multiple people
moving around inside); Satchell v. Cardwell, 653 F.2d
408, 411 (9th Cir. 1981) (holding that exigent circumstances existed to search a trailer without a warrant
when officers received a tip that two women were being
held at the address and one of the officers heard voices
coming from inside the trailer).
During the officers’ standoff with Cooks in the present case, they learned that Cooks was armed, that
there were four people in Cooks’s home (including
Cooks), and that Cooks had been “doing something in a
hole in the floor.” The officers had also heard sounds
“similar to a power drill” coming from inside the residence. But the officers had already removed the four
people of whom they aware from Cooks’s home at the
time the crawlspace was searched. After the hostages
had been secured and Cooks and Clemons had been
taken into custody, the officers did not observe anything to indicate that someone was in the crawlspace,
let alone that someone there was in immediate danger.
And once the officers had removed Price from
Cooks’s home, Price explained that what Cooks was do-

24a
ing “in the floor” was putting guns in the crawlspace.
Price’s statement weighs heavily against a finding that
the officers had probable cause to believe that someone
was in danger in the crawlspace, as the majority frankly concedes. Maj. Op. at 13. This is especially so because the officers knew that Cooks was a “gangmember fugitive.” Maj. Op. at 14. That knowledge
would have (or certainly should have) caused the officers to realize how unlikely the possibility that Cooks
would have placed hostages and guns in the same location.
In addition, the officers explicitly testified that
they had no reason to believe that any additional people were inside of Cooks’s home, much less inside of the
enclosed crawlspace. Officer Deramus testified that he
knew that there were four people in the home based on
“voice communication” and who he “actually saw,” and
that his belief that only four people were in the home
never changed. Sergeant Watts also testified that he
did not “have any information whatsoever that more
than four [people] were in” the home. Simply put, the
officers provided no articulable fact at the evidentiary
hearing that would support an objective belief that
there were any hostages in the crawlspace. See United
States v. Johnson, 22 F.3d 674 (6th Cir. 1994) (holding
that although the discovery of a kidnap victim locked
in an apartment provided exigency for entry, there was
no exigency to search for and remove weapons from a
closet once the victim was located).
Finally, if the officers had a reason to believe that
there were additional hostages in Cooks’s home, then
they could have asked any of the four people they had
removed whether anyone else was inside. Officer Deramus testified that he never so asked. Nor did any officer call down into the crawlspace to inquire whether
anyone was there. The fact that no officer thought to

25a
ask whether anyone else was inside the home or in the
crawlspace further supports the conclusion that there
was no objective reason to believe that a hostage was
inside. This absence of inquiry also supports the conclusion that the “hostage in the crawlspace” explanation was an after-the-fact justification for the illegal
search concocted by the government. Along the same
lines, the various (and outlandish) additional justifications offered by the government for the first time on
appeal—that the officers could have reasonably believed that a confederate was in the crawlspace escaping with evidence or that Cooks placed an explosive
device in the floor— support that conclusion as well.
The main testimony that the majority points to as
affirmatively supporting the possibility of a hostage being in Cooks’s crawlspace is that the officers heard
drilling coming from inside his home. Maj. Op. at 16.
From this, the majority suggests one of two possibilities: that Cooks was hiding either something or someone in the crawlspace. Maj. Op. at 16. But, again, Price
told the officers exactly what Cooks was doing—he was
hiding guns, not a hostage.
In sum, the government failed to carry its burden
of proving that the officers had “an objectively reasonable belief” that someone was in danger in Cooks’s
crawlspace. See United States v. Timmann, 741 F.3d
1170, 1178 (11th Cir. 2013). That scenario might have
been within the realm of possibility, but “[s]uch speculation, without any factual support, will not suffice to
overcome the warrant requirement.” See United States
v. Lynch, 934 F.2d 1226, 1233 (11th Cir. 1991).

26a
II.

In an attempt to find objective facts supporting the
exigent-circumstances exception, the majority improperly focuses on what the officers did not know at the
time of the warrantless search, rather than what facts
existed to support an objectively reasonable belief that
a hostage was inside the crawlspace. See, e.g., Maj. Op.
at 2 (“Just as important here is what the officers didn’t
know . . . .”). Pointing out that the officers “were not
sure whether there were others” in Cooks’s home and
that the officers “at the very least, couldn’t rule out”
the possibility of hostages in the crawlspace, Maj. Op.
at 15 (emphasis omitted), turns the probable-cause inquiry on its head.
The concept of probable cause depends on objective
facts and circumstances present at the time of the officers’ conduct. See, e.g., Florida v. Harris, 568 U.S.
237, 243 (2013) (holding that, in the Fourth Amendment context, an officer “has probable cause to conduct
a search when the facts available to [him] would warrant a [person] of reasonable caution in the belief that
contraband or evidence of a crime is present” (internal
quotation marks omitted)); Beck v. Ohio, 379 U.S. 89,
91 (1964) (explaining that probable cause turns on “the
facts and circumstances within [the officers’]
knowledge and of which they had reasonably trustworthy information”). It does not depend on what officers
cannot “rule out” or on what is within the realm of possibility. See Illinois v. Wardlow, 528 U.S. 119, 123
(2000) (“‘[R]easonable suspicion’ is a less demanding
standard than probable cause.”); Lynch, 934 F.2d at
1233 (“[S]peculation, without any factual support, will
not suffice to overcome the warrant requirement.”).
The analysis of probable cause in the exigentcircumstances context should be no different. Demon-

27a
strating that the officers had probable cause to believe
that an exigent circumstance existed is a burden borne
by the government. United States v. Holloway, 290
F.3d 1331, 1337 (11th Cir. 2002). In the present case,
the government pointed to no fact or circumstance
“within [the officers’] knowledge and of which they had
reasonably trustworthy information” to warrant a reasonable belief that there was a hostage in Cooks’s
crawlspace. See Beck, 379 U.S. at 91; see also Harris,
568 U.S. at 243. Nor did the government point to anything more than unparticularized speculation to support such a belief. See Lynch, 934 F.2d at 1233.
Although there could have been a hostage in the
crawlspace, the officers lacked probable cause to believe that to be the case. If the exigent-circumstances
inquiry turned on whether such a circumstance could
exist, rather than on whether the officers had probable
cause to believe that it did in fact exist, then officers
would have license to search any crawlspace, closet,
shed, or other enclosed space not covered by a lawful
protective sweep by simply claiming that they could
not “rule out” the possibility that someone was inside.
The majority’s response to the officers’ lack of
probable cause to believe that a hostage was in the
crawlspace is that the officers did not “need ironclad
proof of a likely serious, life-threatening injury to invoke the emergency aid exception.” Maj. Op. at 17
(quoting Michigan v. Fisher, 558 U.S. 45, 49 (2009)).
That, of course, is true. See Illinois v. Gates, 462 U.S.
213, 235 (1983) (“[S]tandards such as proof beyond a
reasonable doubt or by a preponderance of the evidence
. . . have no place in the [probable-cause] decision.”).
But the government still must demonstrate that such
probable cause—“an objectively reasonable basis for
believing” that someone was in danger, see Brigham

28a
City v. Stuart, 547 U.S. 398, 406 (2006)—existed. It
failed to do so in the present case.
The majority also contends that this court cannot
“armchair quarterback the officers’ decision” because
the police must act quickly when exigent circumstances
exist. Maj. Op. at 14. But this contention begs the
question of whether exigent circumstances actually existed in the present case. Our role as an appellate court
indeed requires us to “armchair quarterback” that issue.
Here, the facts and circumstances do not support a
finding that the officers had probable cause to believe
that a hostage was in the crawlspace. Once the officers
had secured Cooks and removed the only other known
occupants from the home, they had no objective reason
to immediately conduct a warrantless search of the
crawlspace, a space that one of the occupants had already told them contained multiple guns. They thus
had plenty of time to attain a search warrant, as they
in fact eventually did.
III.

I now turn to the cases that the majority cites to
support its proposition that “searches under the emergency-aid exception have been upheld in circumstances
that would seem to be far less ominous than those
here.” Maj. Op. at 18. Contrary to the majority’s characterizations, those cases actually involve circumstances far more ominous than in the present case. In Michigan v. Fisher, 558 U.S. 45 (2009), for example, the Supreme Court upheld a warrantless search under the
exigent-circumstances doctrine where,
[u]pon their arrival, the officers found a household in considerable chaos: a pickup truck in

29a
the driveway with its front smashed, damaged
fenceposts along the side of the property, and
three broken house windows, the glass still on
the ground outside. The officers also noticed
blood on the hood of the pickup and on clothes
inside of it, as well as on one of the doors to the
house. . . . Through a window, the officers
could see [the defendant] inside the house,
screaming and throwing things. The back door
was locked, and a couch had been placed to
block the front door.
Id. at 45–46.
The exigent-circumstances exception was found
applicable in Fisher because, when the officers arrived,
they “found signs of a recent injury, perhaps from a car
accident, outside” and “could see violent behavior inside.” Id. at 48. And, importantly, the officers were responding to a report of a disturbance when they arrived at the defendant’s home. Id. Fisher’s circumstances were thus far more ominous than the circumstances surrounding the warrantless search here,
which provided no objective indication of recent injury
or violence in Cooks’s crawlspace.
The majority also cites Johnson v. City of Memphis,
617 F.3d 864 (6th Cir. 2010), as another case in which
the exigent-circumstances exception was applied to
what the majority inexplicably characterizes as “far
less ominous” circumstances. Maj. Op. at 18. In Johnson, the Sixth Circuit held “that the combination of a
911 hang [up] call, an unanswered return call, and an
open door with no response from within the residence
is sufficient to satisfy the exigency requirement.” Johnson, 617 F.3d at 869. But, as the court noted,
[t]he whole point of the 911 system is to provide people in need of emergency assistance an

30a
expeditious way to request it. . . . Because a
911 call is by its nature an appeal for help in
an emergency, the emergency aid exception
best fits the attitude of police responding to a
911 call under the circumstances present here.
Id. at 870.
In contrast to Fisher and Johnson, the present case
does not involve circumstances in which a reasonable
officer would similarly infer that someone was in
Cooks’s crawlspace and in need of immediate aid. Neither Fisher nor Johnson, furthermore, analyzed
whether entry into an enclosed space (such as a
crawlspace) within a defendant’s home would have
been justified under the circumstances of those cases.
Finally, I disagree with the majority’s contention
that this court’s recent holding in Montanez v. Carvajal, 889 F.3d 1202 (11th Cir. 2018), supports the majority’s conclusion. See Maj. Op. at 19. First, the holding
of Montanez is relatively narrow. The court held that
“if police have probable cause to suspect a residential
burglary[,] . . . they may, without further justification,
conduct a brief warrantless search of the home to look
for suspects and potential victims.” Montanez, 889 F.3d
at 1208–09. And, as the majority recognizes, executing
an arrest warrant does not carry the same risks inherent in responding to a residential burglary. Maj. Op. at
20.
More significantly, in conducting the search at issue in Montanez, the officers entered the home and discovered marijuana and drug paraphernalia in plain
view. Montanez, 889 F.3d at 1206. The Montanez court
accordingly limited its holding to allow only “a brief
warrantless search of the home.” Id. at 1209 (emphasis
added). In the present case, the challenged evidence
was not discovered in plain view, but rather by physi-

31a
cally removing a screwed-down plywood covering from
the crawlspace. Montanez is therefore inapposite.
IV.

For all of the foregoing reasons, I believe that the
exigent-circumstances exception did not justify the officers’ warrantless search of the covered crawlspace in
Cooks’s home. I also fully agree with the district court’s
conclusion that the officers exceeded the scope of an
otherwise lawful protective sweep when they pried
open the crawlspace cover and searched the space inside. Accordingly, I would reverse the judgment of the
district court and remand this case for further proceedings consistent with my dissent.

32a
APPENDIX B
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF ALABAMA
SOUTHERN DIVISION
UNITED STATES OF
AMERICA,
v.
WILLIE LEE COOKS,

Defendant.

)
)
) Case No. 2:16-cr-0323AKK
)
)
)
)
)

ORDER

The court has for consideration Defendant’s motion
to suppress, doc. 30.
The magistrate judge filed a report on April 28,
2017, recommending that the court deny Defendant’s
motion. See doc. 38. The Defendant has timely objected. See doc. 39. Having carefully reviewed and considered de novo all the materials in the court file, including the report and recommendation, and the objections,
the court is of the opinion that the magistrate judge’s
report is due to be and hereby is ADOPTED and his
recommendation is ACCEPTED. It is therefore ORDERED that Defendant’s motion to suppress, doc. 30,
is DENIED.
Done this the 31st day of May 2017.
/s/ Abdul K. Kallon
Abdul K. Kallon
United States District Judge

33a
APPENDIX C
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF ALABAMA
SOUTHERN DIVISION

UNITED STATES OF
AMERICA,
v.
WILLIE LEE COOKS,
also known as “Little Man”

)
)
) Case No. 2:16-cr-0323AKK-JHE-1
)
)
)
)
)

REPORT AND RECOMMENDATION

This matter is before the Court on the motion of
Defendant Willie Lee Cooks (“Cooks” or “the defendant”) to suppress any evidence obtained as a result of
what he contends was the illegal entry into and search
of his house on August 30, 2016. (Doc. 30). As discussed
below, the undersigned recommends the motion be
DENIED.
I. Background
A. Procedural History

Cooks is charged in a two-count indictment with
two counts of possession of a firearm as a person prohibited from doing so. (Doc. 1). Cooks now seeks to
have the evidence against him suppressed on the
grounds officers violated his Fourth Amendment protections when they entered his residence and subsequently searched it. (Doc. 30). The government filed a
response in opposition to the motion, and Cooks replied. (Docs. 32 & 33). An evidentiary hearing was conducted by the undersigned on February 6, 2017.

34a
B. Facts

Crendal Deramus, a task force officer with the
United States Marshals Service, learned of a Birmingham Police Department warrant for Cooks’ arrest for
second degree assault. (Tr. 3-4). On August 29, 2016,
the task force attempted to locate Cooks at his residence, the address of which they had discovered
through an inquiry to Alabama Power and communication with a neighbor. (Tr. 5). The officers knocked on
the door and, when no one answered, entered the home
by force. (Tr. 5-6). Searching it for about five to ten
minutes, they discovered no one inside. (Tr. 6, 23-24)
The next day, August 30, 2016, at around 10:30
a.m., the task force, comprised of six officers including
Officer Deramus, returned to Cooks’ house. (Tr. 6, 15).
While surveilling the house, Officer Deramus observed
a silver Mercedes leave the residence and return twice.
(Tr. 7-8). When the Mercedes returned for the second
time, around 12:30 p.m., the officers approached the
vehicle and Officer Deramus, who was wearing a police
tactical vest, ordered the vehicle’s occupant to stop. (Tr.
8, 15). The occupant, Precious Clemens, ignored Officer
Deramus’s request, ran into the house, and locked the
door. (Tr. 8-9; doc. 32 at 2). Officer Deramus tried to
communicate with Clemons, but she continued to ignore his requests. (Tr. 9). Eventually, Officer Deramus
spoke to two other people inside the house, Pamela
Price and Everstein Johnson; counting the people he
had spoken with and adding to those Cooks (whom
Price had told Officer Deramus was inside the residence) Officer Deramus knew there were at least four
people inside the house, and he did not believe there
were more than four people present. (Tr. 9-10, 27). Deramus asked Price and Johnson to open the door, but
they told him the door had been boarded and locked
from the inside with a deadbolt for which they did not

35a
have the key. (Tr. 10). Officer Deramus could hear
“sounds similar to a power drill” coming from the area
of the front door. (Tr. 10-11).
During the standoff, the officers surrounded the
house. (Tr. 11). At some point, Price exited the back
door of the house, told the officers Cooks was armed,
and went back inside. (Tr. 11). This information was
relayed to the other officers, and the supervising officer
made the decision to call the Jefferson County Sheriff’s
Office SWAT team due to the potential hostage situation and the barricaded front door. (Tr. 11-12). Sergeant Billy Watts, a member of the SWAT team, responded to the call, and approximately forty-five
minutes later the team arrived. (Tr. 12, 33). The SWAT
team had been told Cooks was potentially armed, but
they did not know how many people were inside the
residence. (Tr. 33). The SWAT team’s hostage negotiator was able to make contact with Price and one other
occupant,8 who stated they wanted to come outside but
could not due to the boarded and locked front door. (Tr.
12-13, 34). The occupants also stated Cooks was “doing
something in a hole in the floor.” (Tr. 34). The attempt
to negotiate failed, and the SWAT team deployed tear
gas. (Tr. 13, 34). That too failed. (Tr. 13). After about
an hour, the SWAT team broke a window, and both
Johnson and Price were able to exit the house with the
SWAT team’s assistance. (Tr. 13, 24). As she was removed from the house, Price told the officers Cooks
was “doing something in the floor.” (Tr. 34-35).
By this point (about four hours after Officer Deramus initially made contact with Clemons) the door had
8

Deramus believed the second person to be Johnson, (tr. 12),
while Watts stated the negotiator spoke to “two different females,”
(tr. 34), meaning, presumably, Price and Clemons.

36a
somehow been unbarricaded, and the SWAT team entered through the door. (Tr. 15-16, 35). Cooks and
Clemons were taken into custody.9 The remainder of
the team performed a protective sweep to search the
house for other persons; the officers believed there
were four people in the house but were not sure whether there were others. (Tr. 37-38). The initial search,
which was to quickly determine whether there were
visible threats, took about thirty seconds. (Tr. 38).
The officers then performed a secondary sweep to
check for possible hiding locations and potential other
hostages in the house, which took a bit longer: three to
five minutes. (Tr. 14, 28- 39, 41). During this second
part of the sweep, the officers discovered an approximately four-foot-square hole in the hallway floor
boarded up with plywood which had been “nailed down
with screws” and a locked closet. (Tr. 39-41 and See also Govt. exh. 5). They forced open the closet door and
pried off the plywood covering the hole in the hallway
floor using a pry bar. (Tr. 40, 56, 58). Deputy Douglas
Lawson, one of the smaller members of the SWAT
team who was often called upon to go into small spaces, entered the hole; it opened into a crawlspace extending the full width of the house. (Tr. 58, 67, 70, 83).
Officer Lawson shined his flashlight into the
crawlspace to look for other people. (Tr. 71, 82). When
Officer Lawson put his hand on the ground to catch
himself from falling, he could feel a piece of plastic
move under it. (Tr. 68, 70, 81). Looking down, he saw
the butt of a gun sticking out from under the plastic.
(Tr. 68). He could also see the barrels and butts of other guns sticking out from under the plastic. (Tr. 68). No
9

The sequence of Cooks’ arrest and exit from the house is somewhat unclear and is discussed below.

37a
other persons were discovered during the protective
sweep. (Tr. 55-56).
Following the protective sweep, the SWAT team
secured the perimeter. (Tr. 41). Steve Owens, a special
agent with the Alabama Law Engorcement Agency,
was called to the scene between 5:00 p.m. and 5:30
p.m. to document firearms that had been discovered in
the crawlspace. (Tr. 86-87). He arrived at about 6:00
p.m. and photographed the exterior of the house, the
hole itself, and a pistol on the ground inside the hole.
(Tr. 87-88). Inside the hole, Officer Owens also saw the
stocks and barrels of long guns protruding from underneath a tarp. (Tr. 89-90). He moved the tarp and discovered several firearms. (Tr. 90). Three to four feet
away, he also saw several pieces of luggage, but could
not tell what was inside them. (Tr. 91). Officer Owens
exited the hole and discussed the situation with his supervisors, who determined the best way to proceed
would be to get a warrant. (Tr. 91). Because there was
no printer available at the scene, Officer Owens left to
print the warrant at a Birmingham police precinct. (Tr.
91-92). At about 8:30 p.m., a Jefferson County judge
signed the warrant, and Officer Owens returned to the
scene. (Tr. 92). Inside the luggage, the officers discovered more firearms. (Tr. 92). Twenty-two long guns and
nine pistols were ultimately recovered from the
crawlspace. (Tr. 92-93).
II. Discussion

The government contends the first weapons were
discovered in plain sight during a lawful warrantless
protective sweep of Cooks’ house, which led the officers
to obtain a warrant to discover the remaining weapons.
(Doc. 32 at 6). Failing that, the government contends
exigent circumstances justified the warrantless search
of the residence. (Id. at 6 n.1).

38a
Under the plain view doctrine, evidence may be
seized without a warrant “where (1) an officer is lawfully located in the place from which the seized object
could be plainly viewed and must have a lawful right of
access to the object itself; and (2) the incriminating
character of the item is immediately apparent.” United
States v. Smith, 459 F.3d 1276, 1290 (11th Cir. 2006)
(citing Horton v. California, 496 U.S. 128, 136–37, 110
S. Ct. 2301, 2308, 110 L. Ed. 2d 112 (1990)). The evidence indicates—and Cooks does not dispute—the first
guns observed by Officer Lawson were in plain sight
once Officer Lawson was in the crawlspace; Cooks
likewise does not contest the gun’s incriminating character. Thus, to the extent those guns could have been
seized, Officer Lawson must have had a right to be in
the crawlspace when it was discovered through one of
the justifications offered by the government. See Coolidge v. New Hampshire, 403 U.S. 443, 489, 91 S. Ct.
2022, 29 L. Ed. 2d 564 (1971) (“Where the initial intrusion that brings the police within plain view of [contraband] is supported, not by a warrant, but by one of the
recognized exceptions to the warrant requirement, the
seizure is . . . legitimate.”).
A. Protective Sweep

“The Fourth Amendment guarantees ‘[t]he right of
the people to be secure in their persons, houses, papers, and effects, against unreasonable searches and
seizures,’” Whren v. United States, 517 U.S. 806, 809
(1996), and, “[o]f all the places that can be searched by
the police, one’s home is the most sacrosanct, and receives the greatest Fourth Amendment protection.”
United States v. McGough, 412 F.3d 1232, 1236 (11th
Cir. 2005) (citing Payton v. New York, 445 U.S. 573,
585 (1980)). Without a warrant issued upon probable
cause, a search is per se unreasonable unless it falls into a specifically established exception. Katz v. United

39a
States, 389 U.S. 347, 356–57, 88 S. Ct. 507, 514, 19 L.
Ed. 2d 576 (1967). One such exception is a protective
sweep, which is “a quick and limited search of premises, incident to an arrest and conducted to protect the
safety of police officers or others.” United States v.
Delancy, 502 F.3d 1297, 1306 (11th Cir. 2007) (quoting
Maryland v. Buie, 494 U.S. 325, 327, 110 S. Ct. 1093,
1094, 108 L. Ed. 2d 276 (1990)). The protective sweep’s
scope “is narrowly confined to a cursory visual inspection of those places in which a person might be hiding.”
Id.
The application of the protective sweep exception
in this case depends on (1) whether the protective
sweep (and thus the warrantless entry into the residence) was justified in the first place and (2) whether,
if the sweep was justified, the officers exceeded its
permissible scope when they removed the plywood covering from the crawlspace in which the evidence was
discovered.
1. Justification for Protective Sweep

Buie established two avenues through which a protective sweep may be justified. First, without probable
cause or reasonable suspicion, an officer may “look in
closets and other spaces immediately adjoining the
place of arrest from which an attack could immediately
be launched.” Buie, 494 U.S. at 334, 110 S. Ct. at 1098.
Second, an officer may perform a protective sweep if he
“possess[es] a reasonable belief based on specific and
articulable facts which, taken together with the rational inferences from those facts, reasonably warrant[s]
the officer in believing that the area swept harbor[s] an
individual posing a danger to the officer or others. Id.
at 327, 110 S. Ct. at 1095 (internal quotation marks,
alterations, and citations omitted). The government
contends the protective sweep in this case is justified

40a
under either prong. (Tr. 107-08). Cooks denies a protective sweep was available at all in this case because he
was arrested outside his home and argues even if it
was available, no evidence supports the second Buie
prong. (Doc. 30 at 4-5; doc. 33 at 3).
The only evidence that Cooks was inside his home
(and “immediately adjoining” the hole) when he was
arrested came from Officer Watts’ testimony Cooks and
Clemons were apprehended just inside the door in the
living room area, about two feet from the hole leading
to the crawlspace, (tr. 35, 38-40); none of the other officers recalled where Cooks was when he was taken into custody. Officer Deramus stated he saw Cooks and
Clemons exit through the front door and Cooks patted
down outside the house, but was unsure whether
Cooks had been taken into custody or patted down prior to this. (Tr. 28-30, 102-03). Officer Lawson recalled
seeing a black male and a black female, but did not
remember whether they were inside or outside the
house when he saw them, and in any event, he did not
testify he saw them arrested. (Tr. 76-77). Officer Watts’
testimony was not strictly inconsistent with his written
report of the incident as to Cooks’ location (which indicated the officers “made entry and detained” all four of
the house’s occupants), (tr. 62-63), but conflicted sharply with three other contemporaneous reports, (tr. 46,
60, 106), one of which Watts had reviewed as to accuracy, (tr. 43), all of which stated Cooks and Clemons
exited the house prior to their arrests. Based on this
conflicting evidence, the undersigned cannot conclude
Cooks was arrested inside the house.
Irrespective of whether the arrest took place inside
or outside the house, though, a protective sweep is justifiable if the exigencies supporting it are present.
United States v. Lesane, No. 15-13385, 2017 WL
1350589, at *14 (11th Cir. Apr. 12, 2017) (“A protective

41a
sweep of a home is authorized, even where a suspect is
apprehended outside of a house, so long as officers
have reason to believe that there is someone inside the
building who would still pose a danger to officers.”) (citing United States v. Burgos, 720 F.2d 1520, 1525 (11th
Cir. 1983)). A protective sweep after a suspect’s arrest
outside his home must comport with Buie’s second
prong. See United States v. Kimmons, 965 F.2d 1001,
1009–10 (11th Cir.1992), cert. denied, 506 U.S. 1086,
113 S. Ct. 1065, 122 L. Ed. 2d 370 (1993), cert. granted
and judgment vacated on other grounds, Small v. United States, 508 U.S. 902, 113 S. Ct. 2326, 124 L. Ed.2d
239 (1993), judgment reinstated, United States v.
Kimmons, 1 F.3d 1144 (11th Cir.1993) (protective
sweep justified after defendant arrested outside home
under Buie’s second prong); accord United States v.
White, 748 F.3d 507, 512 (3d Cir. 2014) (protective
sweeps occurring just outside the home are not per se
unreasonable, but must be analyzed under Buie’s second prong). Therefore, the protective sweep must have
been “based on specific and articulable facts” and the
inferences flowing from those facts.
The government points to several such facts: the
lengthy standoff, the fact Cooks prohibited people from
leaving the house during the standoff, the uncertainty
of the true number of people in the house, and the fact
Cooks had been reported to be armed but was not arrested with a gun. (Doc. 32 at 5-6; tr. 108-12). Cooks
argues all four of the house’s occupants were outside
and accounted for at the time of the protective sweep,
and thus no reasonable suspicion could have supported
it.10 (Doc. 33 at 1, 3; doc. 30 at 4-6). The government

10

Cooks also argues the protective sweep was illegitimate because
Owens entered the hole during the sweep. (Doc. 33 at 1-3). How-

42a
counters by denying the officers could know only four
people were inside the house. (Doc. 32 at 5). The evidence supports the government’s position; while the officers had seen and heard only Cooks, Clemons, Price,
and Johnson, they were unsure how many people were
actually inside. (Tr. 31, 37, 57). This was not a situation in which additional facts were needed to support
the presence of others inside the house besides the defendant; the question was not whether others were inside, but how many others were there. See United
States v. Henderson, 748 F.3d 788 (7th Cir. 2014) (protective sweep justified in hostage situation where officers knew some occupants were inside, but not precisely
how many there were). Officer Watts testified the officers had been told there were four people inside, (tr. 57),
but it would be incongruous to expect officers to rely on
that information and simply take the occupants at
their word. Cooks points out the officers believed
Price’s report Cooks was armed but declined to believe
whichever occupant informed them there were only
four people inside, (tr. 113), but in each case the officers’ decisions were directed toward safety rather than
out of any sense they trusted the occupants’ claims.
Under the circumstances, a protective sweep was
warranted.
2. Scope of Protective Sweep

Having concluded the officers were justified in entering the house to conduct a protective sweep, the undersigned turns to the scope of the sweep: whether it
was reasonable for the officers to pry open the plywood
covering the crawlspace and enter into it as part of a
protective sweep.
ever, the evidence indicates Owens’ entry into the crawlspace occurred well after the protective sweep had concluded.

43a
Cooks argues removing the covering exceeded the
permissible scope of a protective sweep. (Doc. 30 at 6).
The government does little to grapple with this. Instead, it repeatedly emphasizes the hole was big
enough for a person to hide inside, while eliding the officers had to physically remove a nailed-down barrier
to access it. (See doc. 32 at 6). This ignores that the
protective sweep is “narrowly confined to a cursory visual inspection of those places in which a person might
be hiding.” Buie, 494 U.S. at 327, 110 S.Ct. 1093 (emphasis added). Although the three-to-five-minute
length of the sweep supports its cursory nature, the
government offers neither authority nor argument for
why prying up the nailed-down plywood covering of the
hole suffices for a “cursory visual inspection,” notwithstanding the potential someone could have been hiding
in the hole.
The Eleventh Circuit has not considered whether
intrusive measures such as the ones used in this case
are permitted as a part of a protective sweep. However,
the Eighth Circuit confronted a similar situation in
United States v. Davis, 471 F.3d 938 (8th Cir. 2006),
when officers engaged in a protective sweep of a barn
opened a closet door locked from the outside. Although
the court concluded the protective sweep was otherwise
justified, it agreed with the district court’s conclusion
opening the locked closet door exceeded the permissible
scope of a sweep. Id. at 945. The officer who opened the
door observed nothing to indicate the presence of anyone inside the closet, and, in any event, anyone hiding
inside the closet would be locked in. Id. Nevertheless,
because “‘abundant’ evidence found within the permissible scope of the protective sweeps” supported probable cause for the search warrant that was later obtained by the officers, the circuit court agreed with the
district court the evidence should not have been sup-

44a
pressed. Id. at 945-46. But see United States v. Schmitt,
770 F.3d 524, 531 (7th Cir. 2014) (protective sweep in
which officer broke down locked basement door permissible; “a locked door would not protect the officers if
a person with a gun decided to kick the door down or
shoot through it”).
Here, there is no evidence that any officer observed
anything about the plywood-covered hole that would
indicate that a dangerous person was inside, nor is
there a basis to conclude a person inside the sealed
crawlspace could have broken through such that he or
she could have posed a threat to officers. Even more so
than the hypothetical closet occupant in Davis, he or
she would have been effectively locked in due to fact
the plywood cover was nailed down. And, while it is
broadly conceivable a person in the crawlspace could
have fired a gun through the plywood covering, conceivability does not suffice for reasonableness. In any
event, the burden is on the government to prove the
propriety of the protective sweep. In failing to offer any
justification consistent with the exception for removing
the plywood from the hole, it has failed to meet its burden.
B. Exigent Circumstances

Even if not a valid protective sweep, the government contends the search may still be justified based
on the exigent circumstances exception to the warrant
requirement. (Doc. 32 at 6 n.1). The exigentcircumstances exception allows for warrantless entry of
a home “when there is a compelling need for official action and no time to secure a warrant,” which encompasses the following common situations: danger of
flight or escape, loss or destruction of evidence, risk of
harm to the public or the police, mobility of a vehicle,
and hot pursuit. United States v. Holloway, 290 F.3d

45a
1331, 1334 (11th Cir. 2002). The burden of proving the
exception falls on the government, and (in the case of a
justification based on risk of harm to the public or the
police) the test requires that, under the circumstances
known to them at the time, (1) the police reasonably
believed an emergency situation justified a warrantless
search and (2) probable cause existed to “reasonably
believe a person [was] in danger.” Holloway, 290 F.3d
at 1337-38. And, while the scope of any search must be
limited to that necessary to fulfill the purpose justifying the entry, the police need not ignore clearly seizable evidence that is in plain view. See Arizona v. Hicks,
480 U.S. 321, 325-26 (1987).
Because the protective sweep exception is contingent on a specific set of exigent circumstances, the government’s arguments to justify the search as a protective sweep due to the potential presence of dangers to
the officers apply with equal force to its exigent circumstances argument as to entry into the house. As
discussed above, it was reasonable for the officers to
believe a person inside the house could have posed a
danger to the officers, even if it was not reasonable to
pry up the plywood covering the hole to discover such a
person. Overlaid onto that is the exigent circumstance
of danger to persons other than the officers; as indications of this danger, the government points to the fourhour-long standoff and unknown condition of potential
other hostages inside, as well as statements by the
house’s occupants that Cooks was armed, (tr. 11-12,
33), and had been “doing something” to the hole in the
floor, (tr. 34-35). Cooks’ counterargument remains all
the people known by the officers to be in the house
were accounted for; it is even more unavailing here
than in the protective sweep analysis because, in addition to potential threats, the scope of the exigency encompassed potential hostages. The question therefore

46a
becomes whether probable cause existed, consistent
with the hostage situation, to remove the plywood and
search the hole.
Although it was not reasonable for the officers to
conclude the plywood-covered hole contained a person
ready and able to launch an attack at them, a reasonable officer could have believed a hostage could be underneath the plywood covering, inside the hole. The officers already had a basis to conclude that people had
been kept inside the house against their will based on
the statements of Price and Johnson they wished to
leave but could not. The officers also knew that
Cooks—the person keeping Price and Johnson inside—
had been doing something mysterious with the hole.
Under the circumstances, this was sufficient probable
cause that a person could be inside the hole and in
danger such that the officers could remove the plywood
cover and search it without a warrant; a hostage
should not have to wait for a warrant to be freed. And
while it cuts against a valid protective sweep that a
person within the hole concealed by the plywood cover
would have been effectively shut inside, it weighs in
favor of the exigency of removing a potential hostage
from the hole.
While it cannot be justified as a protective sweep,
the officers’ warrantless removal of the plywood covering and subsequent entry into the hole was justified
under the totality of the circumstances due to the exigency of the hostage situation. Therefore, Cooks’ motion is due to be denied.
III. Recommendation

Based on the foregoing, it is RECOMMENDED the
defendant’s motion to suppress, (doc. 30), be DENIED.

47a
IV. Notice of Right to Object

Either party may file specific written objections to
this report and recommendation within fourteen (14)
days. Failure to file written objections to the proposed
findings and recommendation contained in this report
and recommendation shall bar an aggrieved party from
attacking the factual findings on appeal, except for
plain error. Written objections shall specifically identify the portions of the proposed findings and recommendation to which objection is made and the specific
basis for objection. A copy of the objections must be
served upon opposing counsel.
The Clerk is DIRECTED to serve a copy of this report and recommendation upon the counsel for the
United States and upon counsel for the defendant.
DONE this 28th day of April, 2017.
/s/ John H. England, III
JOHN H. ENGLAND, III
UNITED STATES MAGISTRATE JUDGE

48a
APPENDIX D

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
________________________
No. 18-10080-FF
________________________
D.C. Docket No. 2:16-cr-00323-SLB-JHE-1
UNITED STATES OF AMERICA,
Plaintiff - Appellee,
versus
WILLIE LEE COOKS,
a.k.a. Little Man,
Defendant - Appellant.
________________________
Appeal from the United States District Court
for the Northern District of Alabama
________________________
ON PETITION(S) FOR REHEARING AND PETITION(S) FOR REHEARING EN BANC

Before TJOFLAT, NEWSOM, and GILMAN,* Circuit
Judges.
PER CURIAM:
The Petition(s) for Rehearing are DENIED and no
Judge in regular active service on the Court having re-

49a
quested that the Court be polled on rehearing en banc
(Rule 35, Federal Rules of Appellate Procedure), the
Petition(s) for Rehearing En Banc are DENIED.
ENTERED FOR THE COURT:
/s/
UNITED STATES CIRCUIT JUDGE
ORD-42
* Honorable Ronald Lee Gilman, United States Circuit
Judge for the United States Court of Appeals for the
Sixth Circuit, sitting by designation.

